No.

rr

IN THE

Supreme Court of the United States
MONEX DEPOSIT COMPANY, ET AL.,

Petitioners,
v.

COMMODITY FUTURES TRADING COMMISSION,
Respondent.
On Petition for a Writ of Certiorari

to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 that I have, this 23rd day of January, 2020,
served three copies of the Petition for a Writ of Certiorari upon each party
separately represented in this proceeding by causing the copies to be deposited with
the United States Postal Service, with first-class postage prepaid, addressed to

counsel of record at the address listed below:

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

950 Pennsylvania Ave., NW, Room 5616
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov

Counsel of Record for Respondent
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused

electronic copies of the petition to be served on the parties at the email address

listed above.

I further certify that all persons required to be served have been served.

“
=

WW
William M. Jay
GOODWIN PROCTER LLP
1900 N Street, NW
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4000

Counsel of Record for Petitioners

January 23, 2020
